6
■■

la

APPENDIX
126361

IN THE

• s

SUPREME COURT OF ILLINOIS

Tarek Farag,

)
)

Petitioner

)

v.
■3

Ali Waqas,
Respondent

:

’

: ) Petition for Leave to Appeal from ’
jj ;
Appellate Court
i) Second District
) 2-20-0284
;
) 20L44
)
: )
)
)
)
)
)

v

:

:"

/. -'O'-: tf-i /’
T

ORDER
; {

This cause corning to be heard on the motion of petitioner, Tarek Farag, pro se,
due notice having been given, and the Court being fully advised in the premises;
IT IS ORDERED that the motion for expedited consideration of the petition for
'

. ,

r

\

leave to appeal iis allowed. The petition for leave to appeal is denied.
Order entered by the Court.

FILED
October 07, 2020
SUPREME COURT
CLERK

ia

126361
2020 IL App (2d) 200284-U
No. 2-20-0284
Order filed August 14, 2020
NOTICE: This order was filed under Supreme Co art Rule 23 and may not be cited as
precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).

IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT

TAREQ FARAG,

Plaintiff-Appellant,
v.

)
)

Appeal from the Circuit Court
of Du Page County.

)
)
)

) No. 20-L-44
)

ALI WAQAS,
Defendant-Appellee.

) Honorable
) Robert W. Rohm,
) Judge, Presiding.

JUSTICE JORGENSEN delivered the judgment of the court.
Justices McLaren and Bridges concurred in the judgment.
ORDER
U 1 Held: The trial court did not err in denying plaintiffs motions for injunction and
declaratory relief. Affirmed.
H2

In this interlocutory appeal pursuant to Illinois Supreme Court Rule 307(a)(1) (eff. Nov. 1,

2017) (interlocutory appeals as of right; appeal from an interlocutory order “granting, modifying,
refusing, dissolving, or refusing to dissolve or modify an injunction”), plaintiff, Tareq
Farag, appeals the trial court’s orders denying his motions for injunctive and declaratory
relief against defendant, Ali Waqas. For the following reasons, we affirm.

113

I. BACKGROUND

2a
1
*1 IRMITTPn . 10410RRR . TARPk PABArt . 0/11/9(190 19-40 PM

126361
2020 IL App (2d) 200284-U

Tf 4

Plaintiff s property abuts defendant’s propeny in Westmont, with two fences dividing the

property line.

On January 15, 2020, plaintiff, pro se, filed a five-count complaint against

defendant alleging: (1) harassment motivated by religious hate; (2) hateful criminal damage to
property motivated by religion; (3) hateful criminal trespass to real property; (4) invasion of
privacy (spying); and (5) damage to property. Plaintiff alleged that, when he first met defendant,
defendant stated that f’he is a Muslim and asked [plaintiff] if he is a Muslim, and [plaintiff] stated
• that he is not.

[Defendant] tried to convince [plaintiff] that Islam is a peaceful religion, but

[plaintiff] refuted his claims and explained to him that Islamic terrorists are following exactly the
teachings of Islam, which made [defendant] very aigry. After this meeting, [defendant] started
intimidating and harassing [plaintiff] from this time forward.” Plaintiff alleged that, among other
things, defendant and other unknown defendants trespassed onto his property and damaged trees.
He alleged that defendant’s motivation was religious hate, that Sharia, Islam’s legal system,
requires killing anyone who does something that is offensive to Islam and that, therefore, Sharia
law “violatefs] the fundamentals of human rights and our Constitutional protection of the freedoms
of speech and religion, and our rights to live in peace without fear.” Plaintiff requested various
forms of monetary damages and that defendant be enjoined from coming onto his property or
spying on him.
j[ 5

On February 18, 2020, plaintiff moved for an injunction, alleging that, because he and

defendant are neighbors, he lives in “continuous stress, fear, und concern that [defendant] (or
someone from his side) might Come to [plaintiffs] property to cause harm, and could be watching
(spying on) him.” Plaintiff requested that the court bar defendant from coming onto his property,
spying on him, and invading his privacy.

3a
SlIRMITTPn .

- TARFK PAR An . 0/11/9n9fl 19-AO PM

I

2

126361
20201L App (2d)200284-U
16

Defendant did not initially appear or answer the: complaint. As such, on February 26, 2020,

the court entered a default judgment. In addition, it denied plaintiff s motion for injunctive relief,
noting, that plaintiff had not pleaded any of the elements required to obtain injunctive relief, the
pleading was faci ally defective, and, moreover, that plaintiff had filed his complaint in the law
division seeking monetary damages. When plaintiff orally requested that the court declare Sharia
law unconstitutional and a “hateful ideology,” it commented that plaintiff, who had previously
participated in other litigation, knew that the request was “silly” and that it could not issue such a
declaration. Per plaintiffs request, the court set a date for jury trial, noting that plaintiffs rights
to any relief under the compl aint would be later deteimined.

.

1 7 Nevertheles s, on March 16, 2020, plaintiff filed a second motion for injunctive relief,
expanding upon his claims. Plaintiff asserted that an injunction was appropriate because: (1) his
protectible right is one of privacy; (2) he is at risk of irreparable harm, in that he lives in perpetual
stress, “agony,” and fear of Sharia law; (3) he has no adequate remedy at law, “[e]ven if a remedy
is available, it will take substantial time, which makes it inadequate and useless. Additionally, it
is very difficult to calculate [ ] damages if he continue[s] in his status quo;” and (4) he is likely
to succeed on the merits because “has the rights to be left alone, feel safe, live in peace, and enjoy
his privacy.” (Emphasis added.) Plaintiff reiterated his belief that “[w]e have many terrorists’
organizations disguised under many names with large numbers of devoted members that are ready
and willing to take irreparable devastating actions against [plaintiff], and the requested injunction
will deter them.”

18

In addition, on March 16, 2020, plaintiff also filed a motion for “Declaratory Judgment

that Islamic Shar ia is Against Our Constitution and L aws.” Over the course of approximately 30
pages of argument and exhibits, including passages in Arabic that plaintiff purports to translate

4-ct
3
SIIRMITTFO - 1fiA1fi8fiK . TARFK FARAft . 0/11/90911 19-Aft PM

126361
2020IL App (2d)200284-U
and interpret, plaintiff asserted that, in sum, Sharia law is violent and, consequently, ‘
unconstitutional.
19

On April 10, 2020, the court denied both motions “for the reasons previously denied.” In

addition, as defendant had appeared and moved to vacate the default judgment on March 19, 2020,
and plaintiff had no objection, the court vacated the default judgment.
II10

On April 20, 2020, plaintiff moved for the court to enter language that the order denying

his motion to declare Islamic Sharia law unconstitutional was a final and appealable order: On
April 23, 2020, the court denied the motion.
111

On April. 27, 2020, plaintiff filed a notice of appeal concerning the February 26, and April

10* 2020, orders denying injunctive relief, as well as the April 10, and April 23, 2020, orders
denying declaratory relief and concerning appealability.
If 12

On May 4. 2020, plaintiff apparently filed a third motion for injunctive relief and amended

notice of appeal. On May 20, 2020, he filed a motion to reconsider the April 23, 2020, order
concerning appealability. The record on appeal does 'not contain any rulings from plaintiffs May
4, and May 20, 2020, motions.

II. ANALYSIS

113
114

On appeal , plaintiff argues that the court erred in denying his three requests for injunction,

as well as his request for declaratory judgment. In a single paragraph, he argues that the court
erred in refusing to issue an order relating to Islamic Sharia, and in another paragraph, that the
court should have granted the first injunction because it was based upon the allegations in his
complaint. Plaintiff continues that the court erred in denying the second motion for injunction
because he pleaded all four elements for injunctive relief. Further, plaintiff argues that the court
erred in not quickly ruling on his third motion for inj unction and, finally, that the court should

S(X
SIIRMITTP C] -

TAft'Pfc PAPAr? . 0/11/905(1 15-AO PM

i,

4

126361
2020IL App (2d) 200284-U

) . =£

&

gaga?A?A8&8&8

have allowed him to amend his motions, to the extern: that the were defective; We consider
plaintiffs appeal here without input from defendant. First Capitol Mortgage Corp.v.Talandis
Construction Carp., 63 Jll. 2d 128, 133 (1976) (a reviewing court should decide the merits of an
appeal where the record is simple and the claimed error is such that a decision can be made easil
without the aid of argument from the appellee).
115 • We address first plaintiff s allegations concerning injunctive relief. An injunction is a
provisional remed granted to preserve the status quo until the case can be decided on the merits.
Hensle Construction, LLC v. Pulte Home Corp., 399 Ill. App. 3d 184, 190 (2010). A preliminar
injunction is an extraordinar- remed - that should be granted onl when the need is clear. Franz
‘ v. Calaco Development Corp., 322 Ill. App. 3d 941, 946 (2001). The part, seeking a preliminar
injunction must demonstrate: (1) a clearl ascertained right in need of protection; (2) irreparable
injur without the injunction; (3) <no adequate remed at law; and (4) a likelihood d>f success on
the merits. Mohant v. St. John Heart,Clinic, S.C., 225 Ill. 2d 52, 62 (2006). The part seeking
the preliminar injunction must demonstrate a prima facie case “that there is a fair question as to
the existence of the rights claimed, that the circumstances lead to a reasonable belief that the
plaintiff probabl will be entitled to the relief sought, and that the matters should be kept in the
status quo until the case can be decided on the merits.” People ex rel. White v. Travnick, 346 Ill.
App. 3d 1053, 1060 (2004). The failure to establish an element requires the court to den the
preliminar injunction. Mada v. Township High Sellool District 211, 2018 IL App (1 st) 180294,

140.
116

Illinois Supreme Court Rule 307(a)(1) (eff. Nov. 1, 2017) allows interlocutor appeals

from a grant or denial of a preliminar injunction. Or. review, “the onl question *** is whether
there was a sufficient showing made to the trial court to sustain its order.” Postma v. Jack Brown

6a
5
RMRMITTFn . irU-ifiRfifi . TARFK FAR Arc . 0/11/9090 19A0.PM

126361
2020IL App (2d)200284-U
Buick, Inc., 157 Ill. 2d 391, 399 (1993). On appeal, we do not decide controverted questions of
fact or the merits of the case. Maday, 2018 IL App (l st)-l 80294,

40-41. Rather, the decision

to grant or deny a preliminary injunction is reviewed for an abuse of discretion (Mohanty, 225 Ill.
2d at 62), which occurs only when the trial court’s ruling is arbitrary, fanciful, or when no
reasonable person would adopt the trial court’s view (Roach v. Union Pacific R.R., 2014 IL App
(1st) .132015, f 20).
f 17

Here,' the court did not abuse its discretion in denying the first two motions for injunctive

relief. Preliminarily, as the court pointed out, plaintiffs initial motion was facially defective and
did not even set forth the elements for an injunction. Thereafter, his second motion for injunction
pleaded legally insufficient elements, any one of which required the court to deny the injunction.
For example, in his second motion for injunction, plaintiff alleged that he had an inadequate
remedy at law because determining a remedy would “take substantial time,” making it “useless,”
and that an adequate remedy would be difficult to calculate. However, “irreparable harm occurs
only where the remedy at law is inadequate; that is, v/here monetary damages cannot adequately
compensate the injury, or the injury cannot be measured by pecuniary standards.” Best Coin-Op,
Inc. v. Old Willow Falls Condominium Ass’n, 120 III. App. 3d 830, 834 (1983). A preliminary
injunction should not be granted where damages caused by alteration of the status quo pending a
final decision on the merits can be compensated adecuately by monetary damages calculable with
a reasonable degree of certainty. Id. at 835. Here, plaintiffs complaint sought to enjoin defendant
from spying or trespassing, but it primarily sought monetary damages (namely, to compensate for
emotional distress, $100,000 so that plaintiff could move, the cost of removing stumps and
planting
new trees, the cost to repair roof, siding, and gutter damage, punitive damages, attorney’s fees and
costs), which are calculable. The fact that calculating; appropriate monetary damages, if any, might

7cl
«si ibmittpo . 1 n/.-iksrr - fAWPic

AfS . q/i 1 i<rmnH s-sin PM

■i

6

126361
2020IL App (2d)200284-U
take time does not necessarily mean that the remedy will ultimately be inadequate. As such, the
court properly rejected plaintiffs second motion for an injunction, as it failed to establish ah
O

inadequate remedy at law.
Tf 18

Moreover, we note that there also seems to be a,disconnect between the complaint

allegations and the requested injunctive relief Namely, the complaint concerns allegedly
religiously-motivated damage to plaintiffs trees and physical property and an invasion of privacy,
; while his motion for injunction was premised on stress, “agony,” and fear of Sharia law, i.e., a fear
of violence and for his personal safety. The relief being sought by injunction was, therefore, not
a natural extension of the complaint allegations, in that the complaint did, not establish an ongoing
pattern of conduct threatening defendant’s personal physical safety that needed to be enjoined.
119

As to the third motion for injunction, the record does not contain an order pertaining to

that

• ' • -.r, :t

motion and it is not properly before us for review.

120

We turn next to plaintiffs assertion that the court erred in denying his request for a

declaration that Sharia law is unconstitutional. He asserts that his argument does not concern the
Islamic religion, but, rather, a set of laws.
121

As noted, the court refused to issue language; that this order was final and appealable and,

indeed, requests for declaratory relief are not necessarily subject to interlocutory review. See, e.g.,
Carle Foundation v. Cunningham Township, 2017 IL 120427,

15-20 (order regarding count

seeking declaration of law applicable to claims to charitable tax exemption was not subject to
interlocutory ap pellate review). Moreover, plaintiff apparently moved the court to reconsider its
refusal to issue language that the order was final and appealable, but no ruling on the motion to
reconsider is in the record.

1
SMRMITTPn .

. TARFK FARAO . 0/11/9030 13A0 PM

126361
2020IL App (2d)200284-U
122

To the extent that this issue could even be considered a separate and appealable “claim,”

appropriate for our review, at a minimum, the court properly denied the motion for declaratory
relief because it would not resolve the issues between the parties. Specifically, section 2-701(a)

Li

of the Code of Civil Procedure provides that declaratory relief may be granted in cases of “actual
controversy,” but that “the court shall refuse to enter a declaratory judgment or order, if it appears
that the judgment or order, would not terminate the controversy or some part thereof, giving rise
to the proceeding.” 735 ILCS 5/2-701(a) (West 2018). Plaintiff has no “actual controversy” with
Sharia law, nor would declaring Sharia law unconstitutional in any way affect the underlying
complaint allegations concerning defendant’s allegec damage to plaintiffs trees or his invasion of
defendant’s privacy. See, e.g., Adkins Energy, LLC v. Delta-T Corp., 347 Ill. App. 3d 373, 376
(2004) (“For an actual controversy to exist, for declaratory judgment purposes, the case must
present a concrete dispute admitting of an immediate and definitive determination of the parties’
rights, the resolution of which Will aid in the termination of the controversy or some part thereof.”)
Further, a court may not, through a declaration, pass opinion on abstract propositions of law. See,
e.g., Messenger v. Edgar, 157 Ill. 2d 162, 170 (1993).

123

III. CONCLUSION

124

For the reasons stated, the judgment of the circuit court of Du Page County is affirmed.

125

Affirmed.

9a
siiRMiTTFn . iruir.afifi .tarfk faraf; . otiuonin -Iran pm

8

